LAW OFFICES

BROWN, READDICK, BUMGARTNER,
CARTER, STRICKLAND & WATKINS, LLP
5 Glynn Avenue
Post Office Box 220
Brunswick, Georgia 31521-0220
G. Todd Carter
Richard K. Strickland
Bradley J. Watkins
Paul M. Scott
Steven G. Blackerby
Eric L. Bumgartner
Emily It Hancock
Sean K. ScaIly
Amanda L. Szokoly

(912) 264-8544
Fax -(912) 264-9667

Of Counsel:
J. Thomas Whelchel
Retired:
Richard A. Brown, Jr.
Terry L Readdick
John E. Bumgartner

January 14, 2020

Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Amy Corbitt v. Michael Vickers
No: 19-679

Dear Mr. Harris:
I am in receipt of your January 8, 2020 correspondence. I represent respondent Michael Vickers in the
above-referenced matter.
According to your correspondence, the Court desires a response brief to be filed on or before February
7, 2020.
I respectfully request a thirty (30) day extension of time pursuant to Supreme Court Rule 30.4.
The reasons for the request are the following:
1)
On January 15, 2020, I have a pre-trial conference in the United States District for the Southern
District of Georgia with regard to a case that is being tried in February;
2)
On January 17, 2020, I am currently scheduled to participate in a mediation in the Eleventh Circuit
Court of Appeals. During the holiday week of January 20, 2020, I have Answers and/or Motions to Dismiss in
two cases, one in the United States District Court for the Southern District of Georgia and the other in the State
Court;
3)
On January 29, 2020,1 have a Motion for Summary Judgment due in a case pending in the United
States District Court for the Southern District of Georgia involving a paraplegic inmate;

Mr. Scott S. Harris, Clerk
January 14, 2020
Page Two

4)
On February 4, 2020, I have a Scheduling Conference in the United States District Court for the
Middle District of Georgia that is approximately 3 1/2 hours away from my office.
5)
Finally, I have a mediation scheduled on February 7, 2020 in a wrongful death case involving an
ambulance service operated by a county government.
The additional time will permit sufficient time for me to review the Petition, as well as a the Amicus Brief
filed in this matter and consider them in drafting a response to the Petition.
Accordingly, I request a thirty (30) day extension of time. With a thirty (30) day extension, the response
deadline would be March 9, 2020. Counsel for Petitioner has consented to this request.
Please let me know of any questions or concerns. Thank you for your consideration.
Best regards.
Sincerely,
BROWN, READDICK, BUMGARTNER,
CARTER, ST CKLA
KINS, LLP

Ri hard K. Strickland
RKS/lsa
cc:
Paul Whitfield Hughes, Esq.

